     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
                                                                          (617) 565-2684
August 29, 2011

Report Number: A-01-11-00522

Ms. Sherrie D. LeMier
Chief Executive Officer
Cahaba Government Benefit Administrators, LLC
300 Corporate Parkway
Birmingham, AL 35242

Dear Ms. LeMier:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Outpatient Claims Processed by Cahaba
Government Benefit Administrators That Included Procedures for the Insertion of Multiple Units
of the Same Type of Medical Device in Calendar Years 2008 and 2009. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-11-00522 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sherrie LeMier


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




   REVIEW OF OUTPATIENT CLAIMS
PROCESSED BY CAHABA GOVERNMENT
  ADMINISTRATORS THAT INCLUDED
 PROCEDURES FOR THE INSERTION OF
MULTIPLE UNITS OF THE SAME TYPE OF
MEDICAL DEVICE IN CALENDAR YEARS
          2008 AND 2009



                         Daniel R. Levinson
                          Inspector General

                            August 2011
                           A-01-11-00522
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                              EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program. CMS contracts with Medicare contractors, including Cahaba Government
Benefit Administrators (Cahaba), to process and pay hospital outpatient claims using the
Fiscal Intermediary Shared System (FISS).

CMS implemented an outpatient prospective payment system (OPPS) for hospital
outpatient services. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the ambulatory payment classification
group to which the service is assigned. Under the OPPS, outlier payments are available
when exceptionally costly services exceed established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac devices
and joint replacement devices. Generally, a provider implants only one cardiac device
during an outpatient surgical procedure. Under OPPS, payments to hospitals for medical
devices are “packaged” into the payment for the procedure to insert the device. Hospitals
are required to report the number of device units and related charges accurately on their
claims. The failure to report device units and related charges accurately could result in
incorrect outlier payments.

Our audit covered $122,796 in Medicare outlier payments to hospitals for 58 claims for
outpatient procedures that included the insertion of more than one of the same type of
medical device. The 58 claims had dates of service during calendar years (CY) 2008
and 2009.

OBJECTIVE

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by Cahaba that included procedures for the insertion of multiple units of
the same type of medical device.

SUMMARY OF FINDINGS

Of the 58 claims that we reviewed, Medicare paid 47 correctly for outpatient claims
processed by Cahaba that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining 11 claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.




                                            i
For the 11 claims, Cahaba made overpayments to hospitals totaling $29,351. Incorrect
payments occurred because hospitals had inadequate controls to ensure that they billed
accurately for claims that included the insertion of medical devices. In addition,
Medicare payment controls in the FISS were not always adequate to prevent or detect
incorrect payments.

RECOMMENDATIONS

We recommend that Cahaba:

   •   recover the $29,351 in overpayments for 11 inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS

In written comments on our draft report, Cahaba concurred with our recommendations
and described the corrective actions it has taken or plans to take. Cahaba stated that it
had adjusted 8 of the 11 claims that we identified as claims with overpayments for a
recovery of $18,593. Two identified overpayment claims transitioned to Wisconsin
Physician Services and are no longer recoverable by Cahaba. Cahaba stated that it has
forwarded these two claims to CMS’s Kansas City Regional Office for recovery. Cahaba
is researching the remaining claim to determine whether, due to the age of the claim, it
can make an adjustment. Cahaba’s comments are included in their entirety as the
Appendix.




                                            ii
                                             TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
             Hospital Outpatient Prospective Payment System ............................................1
             Medical Devices................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope ................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGRAM REQUIREMENTS ................................................................................3

          PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY .............................4

          CAUSES OF INCORRECT PAYMENTS ................................................................4
               Inadequate Controls at Hospitals ...................................................................4
               Inadequate Medicare Payment Controls ........................................................4

          RECOMMENDATIONS ...........................................................................................5

          CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS ........5

APPENDIX

          CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS




                                                               iii
                                    INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act),
provides health insurance coverage to people aged 65 and over, people with disabilities,
and people with end-stage renal disease. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. Part B of Title XVIII provides supplementary
medical insurance for medical and other health services, including the coverage of
hospital outpatient services.

CMS contracted with Cahaba Government Benefit Administrators (Cahaba) to, among
other things, process and pay claims submitted by hospital outpatient departments.
Cahaba uses the Fiscal Intermediary Shared System (FISS) for processing hospital
claims. Cahaba processes claims for Alabama, Georgia, and Tennessee.

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the
Medicare, Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced
Budget Refinement Act of 1999, P.L. No. 106-113, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS was
effective for services furnished on or after August 1, 2000. Under the OPPS, Medicare
pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). All services and items within an
APC group are comparable clinically and require comparable resources. Under the
OPPS, outlier payments are available when exceptionally costly services exceed
established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac devices
and joint replacement devices. Generally, a provider implants only one cardiac device,
such as a pacemaker or implantable cardioverter defibrillator (ICD), during an outpatient
surgical procedure.

Under OPPS, payments to hospitals for medical devices are “packaged” into the payment
for the procedure to insert the device. Although separate payment is not made for the
device, hospitals are still required to report device charges on their claims. Hospitals are
required to report the number of device units and related charges accurately on their
claims. The failure to report device units and related charges accurately could result in
incorrect outlier payments.




                                             1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by Cahaba that included procedures for the insertion of multiple units of
the same type of medical device.

Scope

Our audit covered $122,796 in Medicare outlier payments to hospitals for 58 claims for
outpatient procedures that included the insertion of more than one of the same type of
medical device. The 58 claims had dates of service during calendar years (CY) 2008
and 2009.

Our objective did not require an understanding or assessment of the complete internal
control structures of hospitals or of Cahaba. Therefore, we limited our review at hospitals
to the controls related to preparing and submitting Medicare claims for procedures that
included the insertion of selected medical devices. We limited our review at Cahaba to
the controls related to preventing or detecting Medicare overpayments to hospitals for
outpatient claims with overstated medical device units.

Our fieldwork included contacting Cahaba and the 19 hospitals that submitted the 58
claims in our review. We conducted our fieldwork from September 2010 through
February 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted hospitals’ outpatient paid claim data from CMS’s National Claims
        History file for CYs 2008 and 2009;

   •    developed computer applications to identify outpatient claims processed by
        Cahaba that included procedures for the insertion of multiple units of the same
        type of medical device and identified 58 claims to review;

   •    reviewed the hospitals’ itemized bills for 58 claims and selected beneficiaries’
        medical records to determine whether the hospitals submitted claims with the
        correct device units and associated charges;

   •    reviewed CMS’s Common Working File claims history for the 58 claims to
        validate the results of our computer match and to verify that the selected claims
        had not been canceled;

                                             2
   •   contacted representatives of the 19 hospitals that submitted the claims to verify
       whether the claims were billed correctly and to determine the causes of
       noncompliance with Medicare billing requirements;

   •   contacted Cahaba to obtain an understanding of edits in the FISS and other
       controls intended to prevent or detect overpayments to hospitals;

   •   calculated the correct payments for claims that needed payment adjustments; and

   •   discussed the results of our review with Cahaba.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Of the 58 claims that we reviewed, Medicare paid 47 correctly for outpatient claims
processed by Cahaba that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining 11 claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.

For the 11 claims, Cahaba made overpayments to hospitals totaling $29,351. Incorrect
payments occurred because hospitals had inadequate controls to ensure that they billed
accurately for claims that included the insertion of medical devices. In addition,
Medicare payment controls in the FISS were not always adequate to prevent or detect
incorrect payments.

PROGRAM REQUIREMENTS

Section 1862(a)(1)(A) of the Act states no payment may be made under Part A or Part B
for any expenses incurred for items or services that are not reasonable and necessary for
the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.
Federal regulations (42 CFR § 419.43(d)) provides for outlier payments for hospital
outpatient services, in addition to the prospective payment, when a hospital’s charges
exceed certain thresholds.



                                            3
PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY

Hospitals incorrectly billed medical device units for 11 of the 58 claims. These billing
errors led to overstated charges, resulting in excessive or unwarranted outlier payments
for 11 claims totaling $29,351.

                        An Example of Incorrectly Billed Units

       One hospital billed for two automatic implantable cardioverter defibrillator
       (AICD) units with charges that totaled $49,280. However, the hospital should
       have billed for one AICD unit with charges of $24,640. The additional charges
       for the second AICD unit resulted in an unwarranted outlier payment of $4,031 to
       the hospital.

CAUSES OF INCORRECT PAYMENTS

Inadequate Controls at Hospitals

The nine hospitals that received incorrect payments had not established the necessary
controls to ensure that they billed the correct device units for outpatient claims processed
by Cahaba that included procedures for the insertion of medical devices. Officials of
these hospitals stated that their billing personnel had billed units incorrectly for one or
more of the following reasons:

   •   personnel made isolated data entry errors,

   •   multiple personnel mistakenly entered the same device charges on the same claim,
       and

   •   undetected flaws in the design or implementation of some billing systems caused
       some claims to be submitted with multiple medical device units.

Inadequate Medicare Payment Controls

Medicare payment controls were not always adequate to prevent or detect incorrect
payments. Specifically, CMS established, as part of its FISS prepayment controls, unit
amount thresholds for medically unlikely edits that are too high for certain medical
devices (i.e., currently, there is a two-unit threshold for pacemakers).




                                             4
RECOMMENDATIONS

We recommend that Cahaba:

   •   recover the $29,351 in overpayments for 11 inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS

In written comments on our draft report, Cahaba concurred with our recommendations
and described the corrective actions it has taken or plans to take. Cahaba stated that it
had adjusted 8 of the 11 claims that we identified as claims with overpayments for a
recovery of $18,593. Two identified overpayment claims transitioned to Wisconsin
Physician Services and are no longer recoverable by Cahaba. Cahaba stated that it has
forwarded these two claims to CMS’s Kansas City Regional Office for recovery. Cahaba
is researching the remaining claim to determine whether, due to the age of the claim, it
can make an adjustment. Cahaba’s comments are included in their entirety as the
Appendix.




                                            5
APPENDIX
            APPENDIX: CAHABA GOVERNMENT BENEFIT ADMINISTRATORS COMMENTS 


                                                                                                             Page 1 of2



                         ®
._____.__L.!LtL.!'oJLL._..__
__.._~_9_.'L. .E:.JUi.l"L.Lt:LL
_ _.__ ~_N E FIT
~£~~OR5~




                 .August 18, 2011


                  Michael Armstrong 

                  Office of Inspector General 

                  Office of Audit Services, Region I 

                  John F. Kennedy FederalBuilding 

                  Room 2425 

                  Boston, MA 02203 


                  RE: Report Number: A-O 1-11-00522 Review of Outpatient Claims Processed by Cahaba
                  Government Benefit Administrators That Included Procedures for the Insertion of
                  MUltiple Units of the Same Type of Medical Device in Calendar Years 2008 and 2009.

                  Dear Mr. Armstrong:

                  This report is in response to the draft report issued to Cahaba Government Benefit
                  AdministratorscID , LLC's (Cahaba GBA) for the above mentioned audit.

                  OIG Recommendations

                  We recommend that Cahaba continue to alert hospitals of the importance of coding
                  outpatient claims with the correct number of medical device units.

                                  Cahaba's Response: We agree with the recommendation to continue to alert
                                  hospitals of the importance of coding outpatient claims with the correct number of
                                  medical device units. Cahaba will develop an ed~cational article and direct it to
                                  all Part A providers. It will be included in our next available Part A Medicare
                                  Newsline, on our website at www.cahaba!Zba.com. and sent to Part A providers
                                  via our listserv.

                   We recommend that Caha.ba work with CMS to strengthen FISS prepayment edits
                   by revising the unit amount thresholds for certain medical devices.

                                  Cahaba's Response: We agree with the recommendation to work with CMS to
                                  strengthen FISS prepayment edits by revising the unit amount thresholds for
                                  certain medical devices. OIG should make the recommendation to CMS to issue a
                                  Change Request to have the system maintainer h!lldcode the edits thus ensuring
                                  all contractors have the same edits in place including the same group of HCPCS
                                  codes.



                                                 Ca twba Government Renefit Administrators', LLC
                                            500 Corporate Parkwuy • Birmingham, Alabama 35242-5425
                                                      A eMS Medi('af!' _~drninisll'il\iVl' Con 11";"'\ 01"
                                                                                    Page 2 of2


Michael Armstrong
Page Two
August 18, 2011


       In the interim, the Medical Director will review the list of devise HepCS. For
       those items where only one unit should ever be billed, a local edit can be created
       to RTP the claims for verification and correction. If there ever should be a need to
       bill more than one unit on any of the HCPCS, we can have that edit created to
       develop for records.

We recommend that Cahaba recover the $29,351 in overpayments for 11 inaccurate
claims.

       Cahaba's Response: Cahaba or its providers have adjusted 8 of 11 claims for an
       overpayment of $18,592.73 and is in the process ofrecovery. Two identified
       overpayment claims (sample 34 & 247) totaling $1,015.55 transitioned to WPS
       October 1, 2001 and are no longer recoverable by Cahaba. These claims have
       been referred to the Kansas City Regional Office for their referral to WPS for
       recovery.

       The remaining sample item #289 for $9,742.11 is currently being researched to
       determine if the history can be pulled back for adjustment as the original claim no
       longer appears on the central working file or on FISS.

If you should have any questions regarding this report, please contact Molly Echols,
Compliance Officer at (205) 220-1587 or via email atMechols@cahabagba.com.

Sinc,}
~4:'~/J ~~-)
SherrieLe~~~
President and Chief Operating Officer
Cahaba Govemment Benefit Administrators@, LLC

CC: 	 Brandon Ward, Vice President, Cahaba GBA Operations 

      Ronald Whitehead, Chief Financial Officer 

